CERTIFICATE OF SERVICE
NO. 20-659
Thompson
Petitioner,
v.
Clark et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the BU
CENTER FOR ANTI-RACIST RESEARCH AMICUS AT MERITS STAGE IN SUPPORT OF PETITIONERS, by
mailing three (8) true and correct copies of the same by Fedex 2-Day, prepaid for deliveryto the
following addresses.
Amir H. Ali
Roderick & Solange MacArthur
Justice Center
501 H St. NE
Suite 275
Washington, DC 20002
(202) 869-3434
amir.ali@macarthurjustice.org
Counsel for Thompson

Richard Paul Dearing
Corporation Counsel of the City of New York
100 Church Street
New York, NY 10007
(212) 356-2500
rdearing@law.nyc.gov
Counsel for Clark et al.

Lucas DeDeus

June 11, 2021

SCP Tracking: One Silber Way, FL 8-Cover Light Green

